              UNITED STATES MARSHALS SERVICE
               ANNUAL FINANCIAL STATEMENT
                     FISCAL YEAR 2009

                  OFFICE OF THE INSPECTOR GENERAL
                     COMMENTARY AND SUMMARY

       This audit report contains the Annual Financial Statement of the United
States Marshals Service (USMS) for the fiscal years (FY) ended
September 30, 2009, and September 30, 2008. Under the direction of the
Office of the Inspector General (OIG), Cotton & Company LLP performed the
USMS’s audit in accordance with U.S. generally accepted government
auditing standards. The audit resulted in an unqualified opinion on the
FY 2009 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with U.S.
generally accepted accounting principles. For FY 2008, the USMS also
received an unqualified opinion on its financial statements (OIG Report No.
09-13).

      Cotton & Company LLP also issued reports on internal control and on
compliance and other matters. For FY 2009, the Independent Auditors’
Report on Internal Control over Financial Reporting identified one material
weakness and one significant deficiency. The material weakness related to
inadequate fund management controls. Financial and compliance controls
are not adequate to ensure that obligation transactions are executed and
recorded in accordance with laws and regulations, and that related
undelivered orders and accounts payable balances are accurate and
complete. Additionally, a significant deficiency was reported for the USMS’s
information system controls. The auditors reported that improvements are
needed in the areas of configuration management (previously referred to as
change control and system software controls) and access controls.

      In the Independent Auditors’ Report on Compliance and Other Matters,
the auditors concluded that the USMS’s financial management systems did
not substantially comply with federal financial management system
requirements and applicable federal accounting standards as required by the
Federal Financial Management Improvement Act of 1996 (FFMIA).

      The OIG reviewed Cotton & Company LLP’s reports and related
documentation and made necessary inquiries of its representatives. Our
review, as differentiated from an audit in accordance with U.S. generally
accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on the USMS’s financial
statements, conclusions about the effectiveness of internal control,
conclusions on whether the USMS’s financial management systems
substantially complied with the FFMIA, or conclusions on compliance with
laws and regulations. Cotton & Company LLP is responsible for the attached
auditors’ reports dated November 2, 2009, and the conclusions expressed in
the reports. However, our review disclosed no instances where Cotton &
Company LLP did not comply, in all material respects, with U.S. generally
accepted government auditing standards.
